                MILITARY AIRCRAFT ACCIDENT
               INVESTIGATION AND REPORTING



Report No. D-2001-179                   September 10, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this evaluation report, visit the Inspector General,
  DoD Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary
  Reports Distribution Unit of the Audit Followup and Technical Support Directorate
  at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Evaluations

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                 OAIG-AUD (ATTN: AFTS Evaluation Suggestions)
                    Inspector General, Department of Defense
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-
  9098; by sending an electronic message to Hotline@dodig.osd.mil; or by writing to
  the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The identity of
  each writer and caller is fully protected.




Acronyms
AFSC                  Air Force Safety Center
ASC                   Army Safety Center
DoDI                  Department of Defense Instruction
MISTRAC               Mishap and Hazard Recommendation Tracking
NSC                   Naval Safety Center
NSIRS                 Naval Safety Interactive Retrieval System
RMIS                  Risk Management Information System
SAS                   Safety Automation System
SIMS                  Safety Information Management System
                        Office of the Inspector General, DoD
Report No. D-2001-179                                                    September 10, 2001
   (Project No. D2000CB-0236.000)

           Military Aircraft Accident Investigation and Reporting

                                    Executive Summary

Introduction. This evaluation was initiated in response to a request from the Deputy
Under Secretary of Defense (Installations and Environment), to conduct a process review
of the Military Service’s implementation of the DoD policy as stated in DoD Instruction
6055.7, “Mishap Investigation, Reporting, and Recordkeeping,” April 10, 1989.

The Deputy Under Secretary of Defense (Installations and Environment) asserted that
improving aviation safety was a major objective of DoD. Military Department aviation
safety programs focused on the reduction and prevention of aviation mishaps; however,
aviation mishaps continued to injure people and caused property damage and losses.
During FY 2000, the Services experienced a total of 57 class “A” aircraft mishaps, which
resulted in 58 deaths and 44 aircraft destroyed. A class “A” mishap occurred when the
reportable damage was $1 million or more; there was total destruction of the aircraft; or
an injury resulted in a fatality or permanent total disability.

Objectives. Our overall objective was to determine whether the Services had
implemented DoD policy for aircraft mishap investigations and reporting. Specifically,
we evaluated:

     •   the independence of mishap investigation boards,

     •   the root cause identification process,

     •   the timeliness and factual accuracy of investigation reports,

     •   the recordkeeping of mishaps, and

     •   the process for tracking corrective actions.

The evaluation was a process review and did not verify the implementation of appropriate
corrective actions. We also reviewed the management control program as it applied to
the evaluation objectives.

Results. The Military Departments implemented the requirements in DoD
Instruction 6055.7 through their respective regulations and instructions. Each Military
Department's aircraft mishap investigation board was independent and identified root
causes in its mishap reports, which were timely.

The Military Departments generally implemented DoD policy for aircraft mishap
investigations, reports, and recordkeeping effectively, but one issue merits management
attention. Although the Army and the Air Force processes for tracking the status of open
corrective actions were adequate, the Navy process was not effective. Consequently, the
corrective actions data in the Navy Safety Information Management System were
unreliable. Also, the Naval Safety Center was unable to meet the strategic mission for
making safety information easily accessible to all Navy personnel and to efficiently
report corrective action performance.

See Appendix A for details on the management control program.

Summary of Recommendations. We recommend that the Vice Chief of Naval
Operations direct the Naval Safety Center to update the safety information management
system to track the timely status of corrective actions associated with aircraft mishaps
and simplify system access for management and safety officials.

Management Comments. The Vice Chief of Naval Operations concurred with the
recommendations and stated that the Navy recognizes the weakness in corrective-action
tracking. The Navy also agreed that the recordkeeping process was not effective. The
Naval Safety Center has taken or is planning to take actions to improve corrective-action
tracking by increasing personnel and forwarding lists of open recommendations to
appropriate agencies for action, controlling custodians, and command aircraft analysts.
The Vice Chief of Naval Operations stated that two initiatives, Navy/Marine Corps
Intranet and Web Enabled Navy, will establish a conduit for fully functional Internet
access to Naval Safety Center databases for authorized customers and limited access to
non-privileged data for all others. A discussion of the management comments is in the
Finding section of the report, and the complete text is in the Management Comments
section.




                                            ii
Table of Contents

Executive Summary                              i


Introduction
     Background                                1
     Objectives                                3

Finding
     Aircraft Mishap Recordkeeping Process     4

Appendixes
     A. Evaluation Process                    10
          Scope                               10
          Methodology                         11
          Management Control Program Review   11
          Prior Coverage                      12
     B. Corrective Actions Closure Process    13
     C. Army and Air Force Processes          14
     D. Report Distribution                   16

Management Comments
     Department of the Navy                   19
Background
    Federal Aviation Safety Programs. The Code of Federal Regulations, Title 41,
    subpart 101-37.12, “Federal Agency Aviation Safety Program,” July 1, 1999,
    recommends the elements for Federal aviation safety programs. The elements
    include:

           •   an aviation safety council,

           •   inspections and evaluations,

           •   hazard reporting,

           •   aircraft mishap and incident investigations,

           •   education and training, and

           •   aviation qualification and certification.

    The DoD aviation safety program generally contained all of the recommended
    elements.

    DoD Aviation Safety. Safety and the achievement of low mishap rates were
    integral parts of the readiness focus for FY 2000. The Under Secretary of
    Defense for Acquisition, Technology, and Logistics requested that, for FY 2000,
    the Senior Readiness Oversight Council concentrate on updating the Military
    Department’s Aviation Safety Program.

    During FY 2000, the Military Services experienced a total of 57 class “A” aircraft
    mishaps, which resulted in 58 deaths and 44 aircraft destroyed. A class “A”
    mishap occurred when the reportable damage was $1 million or more; the aircraft
    was destroyed; or an injury resulted in a fatality or permanent total disability.

    Mishap Investigation, Reporting, and Recordkeeping. The Deputy Under
    Secretary of Defense (Installations and Environment) requested that the Inspector
    General, DoD, conduct a process review of the Service’s implementation of DoD
    policy for aircraft accident investigation and reporting. This policy is stated in
    DoD Instruction (DoDI) 6055.7, “Mishap Investigation, Reporting, and
    Recordkeeping,” April 10, 1989.

    DoDI 6055.7 requires the Heads of DoD Components to:

          •    develop qualification criteria for mishap investigators, provide report
               reviews, and record collected data,

          •    adopt mishap categories, classification criteria, and reporting formats
               and procedures contained in the instruction, and

          •    ensure identification and corrective actions on mishap causal factors.




                                          1
DoD classified mishaps according to the severity of the injury or property
damage using designated letters of the alphabet. DoDI 6055.7 based the
reporting format and procedures on the type of investigations performed,
specifically safety and legal investigations.

Safety and Legal Investigation Processes. DoD used two distinct investigation
processes for serious mishaps, safety and legal. The sole objective of DoD safety
investigations was to prevent future mishaps. Safety teams conducted
investigations and determined root causes to make improvements in aviation
safety and prevent aviation mishaps. A key element to aviation safety was mishap
reporting. Mishap reporting focused on investigation results and recommended
correction of causes determined by safety investigation teams. Safety teams
forwarded final reports through an endorsement chain for acceptance or rejection
of recommended corrective actions. Key program managers were provided with
information to implement recommended corrective actions in areas like:
supervising, training, logistics, or maintenance of aviation programs. Also,
Military Departments needed to consider and use historical safety data during the
development and acquisition of new systems.

Legal investigations were conducted simultaneously, but separately from the
safety investigations. Legal investigations focused on preserving the evidence of
a mishap for all purposes other than mishap prevention. When legal
investigations were completed, a publicly releasable report was produced that
fully documented the facts, circumstances, and causes of a mishap. The
appointed officers conducted investigations, determined findings, and made
recommendations. The investigators consulted legal advisors, who were made
available by the Services' judge advocate generals. Once the legal review was
completed, the reports were forwarded to the commander of the mishap unit to
assign responsibility and accountability.

Role of the Military Department Safety Centers. The Military Departments
tasked the safety centers to:

       •   establish criteria for reporting and quality control of mishap data,

       •   develop a responsive and accessible safety database,

       •   analyze mishap causal factors, systemic origins, and trends, and

       •   incorporate procedures for developing mishap prevention programs;
           and track recommended corrective actions.

See Appendix B for a discussion of the corrective actions closure process. As
Military Department safety chiefs, the commanders of the safety centers
periodically advised their Chiefs of Staff about aviation safety matters (for
example, information on the details of a mishap, or the status of corrective
actions).




                                     2
Objectives
     Our overall objective was to determine whether the Services have implemented
     DoD policy for aircraft mishap investigation and reporting. Specifically, we
     evaluated:

             •   the independence of mishap investigation boards,

             •   the root cause identification process,

             •   the timeliness and factual accuracy of investigation reports,

             •   the recordkeeping of mishaps, and

             •   the process for tracking corrective actions.

     The evaluation was a process review and did not verify the implementation of
     appropriate corrective actions. See Appendix A for details on the management
     control program.




                                           3
           Aircraft Mishap Recordkeeping Process
           The Military Departments generally implemented DoD policy for aircraft
           mishap investigations, reports, and recordkeeping effectively, but one
           issue merits management attention. Although the Army and the Air Force
           processes for tracking the status of open corrective actions were adequate,
           the Navy process was not effective. The recordkeeping process was not
           effective because the Naval Safety Center (NSC) set a low priority for
           updating the status of corrective actions data in the Safety Information
           Management System (SIMS) and had a significant data backlog. Also, the
           SIMS database design required advanced systems language literacy for
           querying. Consequently, the status of corrective actions in SIMS was
           unreliable. Also, the NSC was unable to meet their strategic mission for
           making safety information easily accessible to all Navy personnel or to
           efficiently report corrective action performance.

Mishap Investigations and Reports
    Military Department Guidance. The Military Department generally
    implemented the DoD policy for aircraft mishap investigations, reports, and
    recordkeeping effectively. DoDI 6055.7 requires that the Military Departments
    establish procedures to collect, maintain, analyze, and report aircraft mishaps.
    Each Military Department establishes regulations or instructions for aviation
    mishap/accident investigations, reports, and recordkeeping.

           •   Army Regulation 385-40, “Accident Reporting and Records,”
               November 1,1994.

           •   Office of the Chief of Naval Operations Instruction 3750.6Q, “The
               Naval Aviation Safety Program,” August 28,1989, establishes Navy
               policy. The United States Marine Corps follows the guidance
               provided by the Navy for implementing aviation mishap policy and
               procedures.

           •   Air Force Instruction 91-204, “Safety Investigations and Reports,”
               November 29, 1999.

    Guidance for Investigations. The Military Department guidance directs board
    members and a disinterested third party to conduct class “A” aircraft mishap
    investigations. Safety investigation boards included senior personnel from
    outside the mishap unit and board members with experience, training, and
    knowledge in related specialized fields. Safety investigation boards followed the
    guidance outlined by each Military Department. Legal investigations, conducted
    by one or more individuals, followed guidance from the offices of the judge
    advocate generals, legal counsel, and other authorities. Mishap board members
    assigned to conduct safety investigations did not conduct legal investigations of
    the same mishap.



                                         4
    The Military Departments also established structured data collection procedures
    for data analyses. The data analyses were used to identify causal factors
    associated with aircraft mishaps. Safety and legal investigators completed a
    thorough documentation process before identifying causal factors and
    recommending corrective actions (safety) or determining responsibility (legal).
    While reviewing 14 legal reports, we determined that the information generally
    matched the causes identified in the safety investigations.

    Guidance for Reporting. The Services' safety investigation guidance requires an
    initial report 30 days after a class “A” mishap occurs, for endorsement through the
    chain of command. Each of the Services generally released an initial safety
    investigation report 30 to 90 days after the aircraft mishap. The endorsers
    commented on factual accuracy, recommendations, and assignments for
    corrective actions in the safety investigation report. According to legal guidance,
    the convening authority determined investigation timelines. The judge advocate
    generals reviewed legal reports for legal compliance and the convening authority
    reviewed investigation results for action.

Recordkeeping and Corrective Actions Tracking
    Database Systems for Recordkeeping. The Military Departments designated
    the safety centers as the administrators for historical data on hazards and mishaps.
    The Army and Air Force database systems were available through the internet to
    authorized personnel worldwide, and permitted direct database querying and data
    entry. Database updates occurred daily to maintain information for data analyses.
    Information from the database systems provided timely data to management and
    field organizations to forecast the highest risk operations and recommend controls
    to reduce risk.

    Tracking and Closing Corrective Action. The Military Departments used
    different processes for tracking and closing recommended corrective actions. The
    Military Departments had 591 open corrective actions for FYs 1995 through 2000
    for class “A” aircraft mishaps. See Appendix B for details on the number of open
    corrective actions.

Army and Air Force Process
    Both Army and Air Force have enhanced recordkeeping systems. The systems
    are web-based and offer a user-friendly query process available to commands in
    remote locations and both Services have provided training and on-line user aids.
    Army and Air Force Safety Centers maintained the tracking databases in a timely
    manner. The Air Force shows a higher number of unresolved corrective actions
    because it does not close an action until implementation is complete. Both Army
    and Air Force Chiefs of Staff are briefed regularly on the status of unresolved
    corrective actions. For details on the Army and Air Force systems, please see
    Appendix C.


                                         5
Navy Process
    Recordkeeping. The Navy process for tracking corrective actions was not
    effective because the NSC set a low priority for updating the status of corrective
    actions data in SIMS. SIMS, an informix dynamic relational database developed
    in 1993, was the primary database for safety information.

    The NSC Database Management and Retrieval Division experienced a
    70 percent reduction in data coders over the last 5 years, which caused an
    increased workload for the three remaining coders. As a result, the SIMS
    manager began prioritizing data entries. Data entry for hazard reports, safety
    investigation reports, and endorsement changes received a higher priority than
    updating the corrective actions status. At that point, data entry for changing the
    status of corrective actions became backlogged. NSC aircraft analysts maintained
    aircraft model files to track recommended corrective actions to closure. The
    aircraft analyst submitted data recommending record closure to the SIMS
    manager when the action agency completed the recommended corrective action.
    The SIMS manager could not determine how many open corrective actions in
    SIMS were implemented because data were backlogged for several months.

    Corrective Actions Tracking. The NSC had significant data backlogs which
    caused data from SIMS to be unreliable. The NSC used the Mishap and Hazard
    Recommendation Tracking (MISTRAC) program to monitor corrective actions
    data entered in SIMS. MISTRAC data included corrective actions submissions to
    eliminate hazards. MISTRAC showed 339 corrective actions for class “A”
    aircraft mishaps in SIMS as open. Although major commands had implemented
    corrective actions, the data closing the case in SIMS had not been entered because
    of the backlog. A backlogged system has unreliable or outdated data that could
    result in poor decision making and inefficient resourcing by senior management.
    For example, we compared the SIMS data for three specific airframes assigned to
    the Naval Air Systems Command to the data from the Naval Air Systems
    Command. The Naval Air Systems Command had implemented 34 of the 53 (64
    percent) open recommended corrective actions in SIMS. See the following table
    for a comparison of open corrective actions in SIMS and the Naval Air Systems
    Command. The difference demonstrates that the corrective actions implemented
    by the Naval Air Systems Command were not reflected as closed in SIMS.




                                         6
                                  August 2000 Open Class “A”
                                Recommended Corrective Actions
                                     Safety Information Management Systems
                                     Naval Air Systems Command
                                60
                                                                            53
           Open Recommended


                                50
           Corrective Actions



                                40

                                30
                                             22                                  19
                                20                      15       16
                                                                      12
                                10                           6
                                                  1
                                 0
                                            AV-8       F-14      F-18      Totals
                                                      Aircraft Type



Navy Query System. The NSC used the Naval Safety Interactive Retrieval
System (NSIRS) to query data. NSIRS was a sophisticated database query system
for advanced computer users. NSIRS provided an access path to SIMS and
served as an interface for customers through a structured query language. Naval
aircraft analysts and field organizations had not used NSIRS to query SIMS
because they lacked the technical expertise for this complex system.

Accessibility of SIMS Database. Although the NSC strategic plan included a
goal to find better ways to analyze database information, the NSC was unable to
meet their strategic mission for making safety information easily accessible to all
Navy personnel. NSC provided customers with accurate data on the status of
corrective actions; however, the process required a duplication of effort by NSC
aircraft analysts. Naval aircraft analysts and field organizations did not have the
technical expertise to query SIMS; therefore, NSC aircraft analysts tracked the
status of corrective actions on their desktop computers. When field organizations
requested data from the aircraft analyst, the analyst processed the request through
the SIMS manager to query the data from SIMS. The analysts compared the data
from SIMS to the data on their desktop computers to ensure that customers
received accurate data.

Reporting Corrective Action Performance. The NSC was unable to efficiently
report corrective action performance because the status of corrective actions in the
database were unreliable. The purpose of reporting corrective action performance
is to measure the effectiveness of mishap prevention efforts. Effective
                                     7
    implementation of corrective actions was essential to preventing future mishaps
    that could result in loss of equipment or life. Performance measurement of
    corrective actions implementation would give Navy leaders and safety managers
    the information that highlighted implementation problems and provided the
    background for making informed decisions.

Conclusion
    The Military Departments complied with DoD requirements for aviation mishap
    investigations, reports, and recordkeeping. Each Military Department flight
    mishap investigation was independent and identified root causes of the mishap.
    The aircraft mishap investigation board used the safety center analysts and
    technical experts in the investigation process. Investigation boards reported
    aviation mishap investigations in a timely manner. Each Military Department
    Safety Center relied on the integrity of the aircraft mishap investigation board and
    the endorsement chain for factual accuracy of information.

    The Navy recordkeeping process did not effectively track the status of corrective
    actions. The NSC strategic plan included a goal to find better ways to analyze
    database information and a strategic mission to make safety information easily
    accessible to all Navy personnel. The NSC SIMS did not meet those objectives
    and did not efficiently report Navy corrective action performance. The NSC
    information system for managing aviation mishap corrective actions data needs
    user-friendly capability similar to the systems used by the other Military
    Departments and accessible through the internet. Also, by establishing a
    performance oversight process for implementing corrective actions, Navy leaders
    and safety managers would have the tools needed to make informed resourcing
    and personnel decisions that could effect significant reductions in accidents.

Recommendations and Management Comments
    We recommend that the Vice Chief of Naval Operations direct the Naval
    Safety Center to update the safety information management system to:

           1. Track the timely status of corrective actions associated with
              aircraft mishaps.

    Management Comments. The Vice Chief of Naval Operations concurred and
    stated that they recognize the weakness in corrective-action tracking and agreed
    that the recordkeeping process was not effective because of priorities and staffing.
    However, the Vice Chief of Naval Operations stated that the process of retrieving
    information from the action agencies is in need of attention and not the SIMS
    database. The Naval Safety Center is either taking or planning to take the
    following actions.




                                         8
       •   Hire a GS-12 civilian to oversee the tracking of corrective actions
           listed in mishap recommendations and hazard reports.

       •   Assign two Naval Safety Center Reservists to contact all action
           agencies and update the status of all open mishap recommendations.
           This research will significantly reduce the number of open
           recommendations.

       •   Send a list of open recommendations, twice a year, to all action
           agencies asking that they respond within 30 days indicating whether
           the recommendation has been completed or provide an update to its
           status.

       •   Send a similar list, twice a year, to all controlling custodians.

       •   Send a list of open recommendations, monthly, to the command's
           aircraft analysts to give them the information necessary to take a more
           proactive approach with outside agencies.

       2. Simplify system access for management and safety officials.

Management Comments. The Vice Chief of Naval Operations concurred and
stated that the SIMS database is the most extensive safety database in the DoD.
Although the database appears complex and unwieldy, SIMS permits NSC
analysts to conduct detailed mishap analysis and research vital information,
striving to save lives and resources. The NSC purposely restricted direct access to
the database to protect the privileged nature of much of the data and to ensure that
untrained personnel do not misinterpret data.

The Vice Chief of Naval Operations stated that two initiatives, Navy/Marine
Corps Intranet and Web Enabled Navy, will establish a conduit for fully
functional Internet access to NSC databases for authorized customers and limited
access to non-privileged data for all others.




                                      9
Appendix A. Evaluation Process

Scope
    We reviewed the Military Services' policies and procedures that implement DoD
    policy for aircraft mishap investigation and reporting. We also reviewed the role
    of the Military Department Safety Centers, selected major commands, and field
    operating units for aircraft mishap investigations, reports, recordkeeping, and
    process for tracking corrective actions. We judgmentally selected 101 safety and
    legal mishap investigation reports for class “A” aircraft mishaps from FY 1995
    through FY 2000.

    DoD published the revision to DoDI 6055.7, “Accident Investigation, Reporting,
    and Recordkeeping,” October 3, 2000, after our evaluation project began.
    Aviation mishap investigation requirements generally remained the same;
    therefore, implementation of the new instruction was not included in the
    evaluation.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following corporate-level goal, subordinate performance
    goal, and performance measure.

           FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the force
           by exploiting the Revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (01-DoD-02)
           FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial
           and information management. (01-DoD-2.5)
           FY 2001 Performance Measure 2.5.3: Qualitative assessment of
           reforming information technology management. (01−      −DoD-2.5.3.)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals.

         • Environment Area. Objective: Protect human resources with the
           annual goal of achieving significant reductions in all accidents and
           occupational injuries and illnesses. Goal: Apply risk management
           techniques to aviation safety, ground safety, traffic safety, and safety and
           occupational health. (Env-5.1.1)


                                        10
         • Information Technology Management Area. Objective: Provide
           services that satisfy customer information needs. Goal: Modernize and
           integrate the Defense Information infrastructure, evolving it to the Global
           Information Grid. (IM-2.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense information technology high-risk area.

Methodology
    To accomplish the evaluation, we identified, gathered, and analyzed existing
    requirements, policy, and guidance related to DoD aircraft mishap investigations
    and reports by:

        •   conducting site visits to the Military Department Safety Centers to review
            the investigation and reporting process,

        •   conducting site visits to selected major commands to review the process
            for tracking corrective actions,

        •   interviewing personnel at selected wings and squadrons to obtain their
            views on the effectiveness of the aviation safety program,

        •   reviewing safety and legal reports for class “A” aircraft mishaps to verify
            implementation of DoD policy and to compare causal factors, and

        •   interviewing officials from other agencies to determine their methods for
            aircraft mishap investigation and reporting.

    Use of Computer-Processed Data. To achieve the evaluation objectives, we
    relied on computer-processed data contained in the Army, Navy, and Air Force
    safety information systems. Nothing came to our attention as a result of specified
    procedures that caused us to doubt the reliability of the data contained in the
    Army and Air Force safety information systems. The results of our data tests of
    the Naval Safety Information Management System (SIMS) showed that there
    were open recommendations in SIMS that had, in fact, been closed, casting doubt
    on the data's reliability. However, when the data are reviewed in context with
    other available evidence, we believe that the opinions, conclusions, and
    recommendations in this report are valid.

    Evaluation Type, Dates, and Standards. We performed this program evaluation
    from August 2000 through April 2001 in accordance with standards implemented
    by the Inspector General, DoD. Accordingly, we included tests of management
    controls considered necessary.

    Contacts During the Evaluation. We visited or contacted individuals and
    organizations within DoD and other Federal agencies. Further details are
    available on request.
                                       11
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of NSC management controls over the implementation of the DoD
    policy for aircraft mishap investigation and reporting. Specifically, we reviewed
    NSC management controls over investigations, reports, recordkeeping, and the
    process for tracking corrective actions. We assessed management’s
    self-evaluation.

    Adequacy of Management Controls. We identified material management
    control weaknesses for NSC as defined by DoD Instruction 5010.40. NSC
    management controls for implementing the DoD aviation mishap investigations,
    reports and recordkeeping program were adequate; however, the Navy process for
    tracking corrective actions was not effective. The NSC set a low priority for
    updating the status of corrective actions data in SIMS. Implementation of
    Recommendations 1. and 2. will improve NSC's corrective action tracking
    process. A copy of the report will be provided to the senior official responsible
    for management controls at the Naval Safety Center.

    Adequacy of Management's Self-Evaluation. The NSC did not identify
    tracking corrective actions as an assessable unit and, therefore, did not identify or
    report the material management control weaknesses identified by the evaluation.
    However, NSC plans to revisit, in their 2001 Strategic Plan, the tracking of
    aviation mishap corrective actions and will address it within Goal 3, Objective 1
    of their 2001 Strategic Plan, “…Evaluate Process/Product Effectiveness” and treat
    tracking of aviation mishap corrective actions as a separate assessable unit.

Prior Coverage
    During the last 5 years, the General Accounting Office issued two reports
    addressing aircraft safety.

    GAO Report No. NSIAD-98-95BR, “Military Aircraft Safety, Serious Accidents
    Remain at Historically Low Levels,” March 23, 1998.

    GAO Report No. NSIAD-96-69BR, “Military Aircraft Safety, Significant
    Improvements Since 1975,” February 1, 1996.




                                         12
Appendix B. Corrective Actions Closure Process
   Different Processes for Closure. The Military Departments had different
   processes for closing recommended corrective actions. The Army Safety Center
   closed a corrective action when the major command accepted responsibility for
   implementation. This process did not reflect whether the corrective action was
   fully implemented. The Naval Safety Center closed a corrective action after the
   NSC analyst notified the SIMS manager that the corrective action was
   implemented; however, there was a significant backlog, and the corrective action
   data in SIMS were unreliable. The Air Force Safety Center updated the database
   and kept all corrective actions open in the tracking system until fully
   implemented. The following table demonstrates that the number of
   noncumulative open corrective actions in the Military Department's databases
   varied dramatically because of the different processes.

             Open Corrective Actions For Class “A” Aircraft Mishaps
                             FYs 1981 through 2000
    Fiscal Year          Army               Navy             Air Force       Total
       2000                4                143                 66            213
       1999                0                 82                 87            169
       1998                0                 60                 41            101
       1997                0                 26                 28             54
       1996                0                  5                 12             17
       1995                0                 23                 14             37
       Total               4                339                 248           591
    1994 – 1981            0                  0                 21             21
       Total               4                339                 269           612

   Implementation of Corrective Actions. The DoDI 6055.7 requires that the
   Heads of DoD Components establish procedures to verify that corrective actions
   are taken on identified mishap causal factors. The table shows that 612 corrective
   actions, recommended by safety investigations for class “A” aircraft mishaps,
   were reflected as not implemented in the Military Department tracking databases.
   Corrective action recommendations were made to correct a causal factor of a class
   “A” aircraft mishap and to prevent future mishaps. Corrective actions were
   delayed or not implemented for various reasons, such as: insufficient funds,
   limited personnel, professional or philosophical disagreement with the
   recommended corrective action, not cost beneficial, long logistical lead times, and
   economic decisions for modifying equipment which was nearing the end of its
   useful life.



                                       13
Appendix C. Army and Air Force Processes

Army Process
     Recordkeeping. The Army Safety Center (ASC) converted the Army Safety
     Management Information System database to a new Oracle database
     approximately 3 years ago. The ASC made the Risk Management Information
     System (RMIS) available, through the internet, to safety officers (of all Services)
     worldwide. RMIS was the primary interface to safety data stored in the Army
     Safety Management Information System. The ASC provided Discoverer software
     that allowed major commands to query technical information from remote
     locations. In addition, the ASC also offered training and data dictionaries to
     major command safety engineers to assist in constructing data queries.

     Corrective Actions Tracking. The Army tracking system indicated four open
     corrective actions for class “A” aircraft mishaps. The Army used the
     Recommendation Tracking System, which was a data tracking program in RMIS.
     When a major command accepted responsibility for implementing a
     recommended corrective action, the ASC changed the status in the
     Recommendation Tracking System to closed. At that point, the major command
     was tasked to assign the corrective action to the appropriate organization, monitor
     and track the progress, and provide the status to the ASC. The ASC Director of
     Operations, conducted monthly meetings to track the progress of open corrective
     actions. The ASC provided quarterly briefings to the Army Chief of Staff. The
     quarterly briefings discussed major command assignments and comments from
     the commands. The Army Chief of Staff or Vice Chief of Staff resolved all
     assignment disputes among the ASC and the major commands.

Air Force Process
     Recordkeeping. The Air Force Safety Center (AFSC) updated and enhanced
     their aircraft mishap databases and reporting processes in FY 1998. The AFSC
     used the Safety Automation System (SAS), a globally accessible web-based
     network, to report and analyze mishaps. SAS provided secure, easy, and
     worldwide access of Air Force ground safety data to safety officers of all
     Services. SAS also provided ad-hoc query capability to mishap reports with
     simple data entry forms and various query output reports. The AFSC offered
     training and published user's guides to assist in constructing database queries.
     The AFSC continued to enhance the mishap databases by developing the aviation
     SAS. Aviation SAS will allow users in the field to query aviation safety
     information from remote locations. The AFSC anticipates that aviation SAS will
     go online by December 2001.




                                         14
Corrective Actions Tracking. The Air Force had 248 open corrective actions
for class “A” aircraft mishaps; however, corrective actions remained open in the
Air Force tracking system until the recommendation was fully implemented. The
AFSC tasked the appropriate major command to verify that the corrective actions
were implemented in the final mishap report. The major command's formal
corrective action review process provided minutes to the AFSC on the status of
corrective actions semiannually. When the major command confirmed that
corrective actions were completed, the AFSC changed the status to closed. Not
only did the AFSC brief the Air Force Chief of Staff, but safety issues were
discussed at meetings of all senior Air Force leadership, including selected
Corona meetings. The Corona, hosted by the Air Force Chief of Staff, met three
times a year to address issues, share information, and formulate policy.




                                   15
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Installations and Environment)
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Commander, Army Safety Center

Department of the Navy
Vice Chief of Naval Operations
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Safety Center

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Air Force Safety Center

Non-Defense Federal Organization
Office of Management and Budget




                                          16
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          17
18
Department of Navy Comments




                 19
20
Evaluation Team Members

The Contract Management Directorate, Office of the Assistant Inspector General
for Auditing, DoD prepared this report. Personnel of the Office of the Inspector
General, DoD, who contributed to the report are listed below.

Richard B. Jolliffe
William C. Gallagher
Michael R. Herbaugh
Marcia L. Kilby
Robert M. Sacks
Joseph M. Kaseler
Scott G. Stadtmueller
